Washington, D.C. 20530

October 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Charles Bryant v. United States of America,
S.Ct. No. 21-5480
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 20, 2021,
and placed on the docket on August 25, 2021. The government’s response is due on October 21,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time to and
including November 22, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which was
delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.
Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5480
BRYANT, CHARLES
USA

MATTHEW B. LARSEN
DEPUTY PUBLIC DEFENDER
52 DUANE STREET
NEW YORK, NY 10007
212-417-8725
MATTHEW_LARSEN@FD.ORG

